U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

UNEMPLOYMENT INSURANCE PROGRAM,
      DEPARTMENT OF LABOR,
 GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO. 99-I-148
              DECEMBER 1998
                                                                            v-IN-VIS-004-97

              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, DC. 20240




Honorable Roy L. Schneider
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject:    Audit Report on the Unemployment Insurance Program, Department of Labor,
            Government of the Virgin Islands (Nu. 99-I-148 )

Dear Governor Schneider:

This report presents the results of our review of the Unemployment Insurance Program
administered by the Department of Labor, Government of the Virgin Islands. The objective
of the audit was to determine whether the Department (1) adequately enforced the collection
of unemployment taxes from employers and deposited such collections in the appropriate
accounts and (2) ensured that only qualified applicants received unemployment benefits.

Based on our review, we concluded that the Department’s Division of Unemployment
Insurance did not (1) effectively collect unemployment taxes from employers, (2) ensure that
only qualified applicants received unemployment benefits, and (3) have an adequate level of
administrative controls over its bank accounts. Specifically. we found that:

        - The Division did not (1) issue unemployment insurance bills to employers in a
consistent and timely manner: (2) ensure the accuracy of employers’ unemployment
accounts, (3) actively follow up with employers concerning delinquent unemployment taxes,
(4) consistently assess interest and penalties against delinquent employers, and (5) maintain
an adequate level of internal controls over computer operations. As a result, 43 employers
overpaid their unemployment taxes and had to be issued refunds totaling about $496,600,
21 employers underreported their unemployment taxes by about $60,000, about 2,100
employers owed $17.4 million in delinquent unemployment taxes and 80 government and
nonprofit employers owed $1.1 million for unemployment benefits paid to their former
employees, interest and penalties totaling about $16,400 were not assessed during fiscal years
1996 and 1997, and there was little assurance that the status of employers’ unemployment
tax accounts on the Division’s computer system was reliable.

         - The Division did not (1) ensure that only qualified applicants received
unemployment insurance benefits and (2) adequately safeguard computer and hard copy files
for all individuals who applied for unemployment benefits. As a result, 156 claimants
received excess benefit payments of more than $152,800, supporting records were not
available for 183 additional claimants who received benefit payments of about $400,400, and
there was little assurance that information on claimants and benefits payments on the
Division’s computer system was reliable.

        - The Division did not ensure that (1) monthly bank reconciliations were performed
and (2) blank, canceled, and voided checks were properly controlled and secured. As a
result, discrepancies existed between bank and book balances for the .Division’s
Unemployment Benefit Account, and 197 canceled checks for benefit payments could not
be located.

We made 12 recommendations to the Governor of the Virgin Islands to improve the
unemployment tax collection, unemployment benefit payment, and administrative oversight
functions within the Division of Unemployment Insurance.

The October 8, 1998, response (Appendix 2) from the Commissioner of Labor indicated
concurrence with all 12 recommendations and provided information on corrective actions
that had been or were being taken. Based on the response, we consider three
recommendations resolved and implemented and nine recommendations resolved but not
implemented. Accordingly, the unimplemented recommendations will be forwarded to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation.

Since the report’s recommendations are considered resolved, no further response to this
office is required (see Appendix 3).

The Inspector General Act, Public Law 95452. Section 5(a)(3), as amended requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix I), actions taken to implement audit recommendations, and
identification of each significant recommendation on w-hich corrective action has not been
taken.

We appreciate the assistance of the staff of the Department of Labor in the conduct of our
audit.




                                             Eljay B. Bowron
                                             Inspector General
                                                 CONTENTS
                                                                                                                     Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . *   1

          BACKGROUND.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
          OBJECTIVE AND SCOPE ........................................                                                   2
          PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 3

FINDINGS            AND         RECOMMENDATIONS                          ........__.......................               4

         A. UNEMPLOYMENT TAX COLLECTIONS ........................ 4
         B. UNEMPLOYMENT BENEFIT PAYMENTS ....................... 12
         C. ADMINISTRATIVE CONTROLS ............................... 17

APPENDICES

         1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . _ _ . _ . . . . 20
         2. DEPARTMENT OF LABOR RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . 2 1
         3. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . , . . . . s . . 28
                                 INTRODUCTION
BACKGROUND

The Unemployment Insurance Program in the Virgin Islands is a coordinated Federal-local
program that operates under the provisions of Title 20, Chapter V, of the Code of Federal
Regulations and Title 24, Chapter 12, of the Virgin Islands Code. The Code of Federal
Regulations defines the Federal requirements under which state unemployment insurance
programs must operate to be eligible for certification under the Federal Unemployment Tax
Act. Such certification allows tax credits to be given to employers against unemployment
taxes imposed by the Internal Revenue Code of 1954 and grants to be given to the states for
administrative expenses of their unemployment insurance programs. The Virgin Islands
Code defines the specific policies and procedures under which the Unemployment Insurance
Program operates in the Virgin Islands.

According to the Governor’s Executive Budget for fiscal year 1998, the Virgin Islands
Department of Labor has the overall responsibility for “promoting and protecting the welfare
of workers, and developing programs and services designed to alleviate labor problems
which would interfere with business harmony and stability.” The Department’s Division of
Unemployment Insurance provides temporary income to workers who are unemployed or
underemployed through no fault of their own. In accordance with Title 24, Section 30 1, of
the Virgin Islands Code, benefit payments to claimants are funded through “the systematic
accumulation of f%nds [paid by employers] during periods of employment from which
benefits may be paid [to individuals] during periods of unemployment.”

The Division of Unemployment Insurance has a total staff of 38 employees and maintains
an office on St. Thomas and two offices on St. Croix. The office on St. Thomas is the main
office, and it processes all unemployment tax payments received from employers and all
unemployment benefit payments made to claimants. This ofice also maintains all files
related to employers in the Virgin Islands. All three offices accept applications for
unemployment benefits and maintain files related to applicants in theirrespective geographic
areas of responsibility. Interstate and combined wage claims (benefits paid to claimants who
worked in the United States and the Virgin Islands during the benefit year) are processed by
the office on St. Thomas.

The Division’s records indicate that, during fiscal year 1997, there were about 3,400 Federal,
local government, and private employers in the Virgin Islands. Private employers are
required by the Virgin Islands Code and the Department of Labor’s regulations to submit to
the Division quarterly reports of all employees and their wages and to pay unemployment tax
contributions based on tax rates assigned by the Division. Federal and local government
agencies and nonprofit organizations may elect to reimburse the unemployment insurance
program for benefits paid to their former employees in lieu of making quarterly
unemployment tax payments, and all such entities in the Virgin Islands have chosen that
reimbursement method. Unemployment tax collections from private employers totaled
$8.8 million during fiscal year 1996 and $7.7 million during fiscal year 1997.


                                              1
Under Federal law, the unemployment tax collections are deposited with the Treasury of the
United States on account for the Virgin Islands. The Division makes drawdowns against this
account to pay weekly unemployment benefits to claimants. The drawdowns from the
Federal Unemployment Insurance Fund totaled $9.9 million during fiscal year 1996 and
$7.4 million during fiscal year 1997.

To qualify for unemployment benefits, an applicant must meet certain eligibility
requirements that are defined in the Virgin Islands Code and the Unemployment Benefit
Manual. In general, a claimant must have qualifying wages, be unemployed or
underemployed, be physically able to work, be available to work, and be actively seeking
work. A claimant can receive benefits of as much as $23 1 per week (depending on the total
amount of qualifying wages) for an initial period of 26 weeks. Benefit amounts may be
reduced or denied entirely if the claimant receives other forms of income. If an applicant is
disqualified from receiving benefits and disagrees with this determination, the individual
may appeal and ask for a hearing by an impartial examiner. About 11,000 claimants’
received benefits totaling $11.5 million during fiscal year 1996, and about 7,300 claimants
received benefits totaling $6.7 million during fiscal year 1997. Unemployment tax refunds
to employers and other payments from the Unemployment Insurance accounts totaled about
$283,000 in fiscal year 1996 and $828,000 in fiscal year 1997.

OBJECTIVE AND SCOPE
The objective of the audit was to determine whether the Department of Labor (1) adequately
enforced the collection of unemployment taxes from empioyers and deposited such
collections into the appropriate accounts and (2) ensured that only qualified applicants
received unemployment benefits. The scope of the audit included a review of unemployment
tax billing and collection practices and unemployment benefit payment practices that were
in effect during fiscal years 1996 and 1997 and other periods as appropriate. The audit was
performed at the offices of the Department of Labor on St. Thomas and St. Croix and the
Department of Finance on St. Thomas.

Our review was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances.

We limited the evaluation of internal controls over operations of the Division of
Unemployment Insurance to the extent that we considered necessary to accomplish the audit
objective. The internal control weaknesses identified were related to the collection of
insurance taxes from employers, the processing of unemployment benefit claims and
payments, and the administrative controls over bank accounts. These weaknesses are
discussed in the Findings and Recommendations section of this report. The
recommendations, if implemented, should improve the internal controls in these areas.


‘The 11,000 claimants during fiscal year 1996 included individuals who were unemployed or underemployed
in the aftermath of Hurricane Marilyn in September 1995.

                                                  2
PRIOR AUDIT COVERAGE

Neither the General Accounting Office nor the Office of Inspector General has conducted any
prior audits of the Unemployment Insurance Program of the Virgin Islands Department of
Labor.




                                            3
                FINDINGS AND RECOMMENDATIONS
A. UNEMPLOYMENT TAX COLLECTIONS
 The Division of Unemployment Insurance did not effectively enforce the collection of
unemployment tax contributions from employers. Specifically, the Division did not (1) issue
unemployment insurance bills to employers in a consistent and timely manner, (2) ensure the
accuracy of employers’ unemployment accounts, (3) actively follow up with employers who
had delinquent unemployment taxes, and (4) consistently assess interest and penalties against
delinquent employers. Title 24, Section 309, of the Virgin Islands Code outlines the legal
requirements related to the collection of delinquent and contested unemployment taxes.
Section 3 10.8 of the Department of Finance’s Government Accounting Manual requires that
agencies keep an up-to-date record of issued bills and periodically follow up on those bills
which are past due. The Department of Labor’s Unemployment Tax Manual contains the
procedures for the collection of unemployment taxes. However, the deficiencies existed
because Division officials did not effectively supervise the collection process or organize
available staff resources to ensure compliance with existing policies and procedures. In
addition, the Division was dependent on an outdated computer system that did not have basic
internal controls to ensure the integrity of data and the accuracy of the bills issued. As a
result, 43 employers overpaid their unemployment taxes and had to be issued refunds totaling
about $496,600; 21 employers underreported their unemployment taxes by about $60,000
because the incorrect tax rates were used; about 2,100 employers (who were subject to
quarterly payment of unemployment taxes) owed $17.4 million in delinquent unemployment
taxes and 80 employers (who had elected to pay unemployment taxes on a reimbursable
basis) owed $1.1 million for unemployment benefits paid to their former employees; and
interest and penalties totaling about $16,400 were not assessed during fiscal years 1996 and
1997.

Issuance of Bills
The Division issued quarterly unemployment insurance report forms, which are used by the
employers to report the names, Social Security numbers, and salaries of its employees and
to determine the amount of unemployment taxes to be paid, to employers in a timely
manner. Additionally, the Division issued up to two special notices to employers each year:
one notice to inform them that a “delinquent tax rate” of 9.5 percent would be applied in the
following year if any delinquent unemployment taxes were not paid by December 3 1 and the
second notice to inform them, by January 3 1, of their unemployment tax rate for the current
year.2

However, Part E-8c of the Unemployment Insurance Manual also requires that the Division
issue statements of account (bills) to employers at other times during the year as needed to
inform them of transactions related to their unemployment insurance accounts; missing


2The unemployment tax rates vary depending on the extent to which each employer’s former employees
received unemployment insurance benefits in the prior calendar year.

                                                4
quarterly reports; and outstanding unemployment taxes, including interest and penalties. Our
review disclosed that such bills were not issued to employers after 1994. Additionally, bills
for the frost quarter, which ended March 3 1,1997, were not issued until May 1997, and bills
for the second quarter, which ended June 30, 1997, were not issued until August 1997.
Further, these bills were not subjected to the Division’s normal process of printing an “edit
run” to allow its staff to identify obvious errors prior to printing and issuing the bills. We
also found that bills for the third quarter, which ended September 30,1997, were not issued.
The Division’s Computer Manager told us that he was instructed by his supervisor not to
issue the third quarter bills because the “edit run” would not be corrected and the issuance
of inaccurate bills would result in “too many” inquiries from employers. However, the
Computer Manager’s supervisor said that a computer problem resulted in the incorrect
calculation of interest due on outstanding balances and that the bills were therefore not
issued.

Verification of Employer Payments

Part E-7b of the Unemployment Tax Manual requires the Division to contact employers by
telephone to verify and/or correct the amount of unemployment tax payments received, and
Part E-7g of the Manual requires the Division to send memoranda to employers who have
underpaid or overpaid unemployment taxes, interest, or penalties. However, we found that
the Division did not always perform these functions. As a result, some employers continued
to make overpayments over a period of several quarters and eventually had to be refunded
payments by the Division. For example, we found that at least 43 employers were issued
refunds totaling about $496,600 during the period of June 1995 to August 1997.

Additionally, we reviewed a sample of 60 employer accounts (35 on St. Thomas and 25 on
St. Croix) and found that 21 employers who had delinquent unemployment taxes totaling
$961,000 had underreported their tax liabilities by about $60,000 because they had used the
incorrect unemployment tax rates. However, we found no evidence in the Division’s files
for these employers to indicate that they had been contacted regarding the underreported
taxes or the delinquent balances. Therefore, we contacted the employers through site visits
and telephone inquiries to determine the reasons for the delinquencies and/or the
underreporting of taxes. In 12 cases, the employers stated that they had not been contacted
by the Division concerning the unpaid or underreported taxes. For example:

        - One business did not submit quarterly unemployment reports or make
unemployment tax payments for calendar years 1993 through 1995 and had made only one
payment for 1996. Although the business had an outstanding balance of more than $130,000,
the business owner had not been contacted by the Division, and no legal action had been
taken to enforce collection of the delinquent amount.

        - Another business did not make any unemployment tax payments in 4 years.
Although the business had an outstanding balance of more than $140,000, this business
owner also had not been contacted by the Division, and no legal action had been taken to
collect the delinquent amount.
 Collection of Delinquent Taxes
 The collection enforcement procedures established by the Virgin Islands Code and the
Unemployment Tax Manual were not used by the Division to ensure the collection of
delinquent unemployment taxes. Title 24, Section 309(b)(l), of the Virgin Islands Code
states that if an employer defaults on unemployment tax payments and/or interest and
penalties accrued on an outstanding balance, civil action should be taken against the
employer. The Tax Manual also defines collection options that are available to the Division,
including establishing an &month installment payment plan, issuing demand letters, and
seeking an injunction against the continued operation of the delinquent business. However,
none of these collection options were used by the Division. As a result, as of July 1997,
2,099 employers who were subject to quarterly payment of unemployment taxes owed
delinquent taxes of % 17.4 million, and 80 employers who had elected to pay unemployment
taxes on a reimbursable basis owed an additional $1.1 million as reimbursement for
unemployment benefits paid to their former employees.

To test the level of collection enforcement activity by the Division, we reviewed the files for
a sample of 60 employers (35 on St. Thomas and 25 on St. Croix). We found that
24 employees (8 on St. Thomas and 16 on St. Croix) had delinquent taxes of about $988,500.
However, the records maintained by the Division’s revenue officers contained documentation
of collection action for only 2 of the 24 delinquent employers (both on St. Thomas). For
example:

        - One business did not file unemployment reports or pay taxes for 11 consecutive
quarters in 1995 through 1997. Despite attempts by Division officials, including an audit of
the business in June 1996 which disclosed that the business owner had underreported wages
paid to employees in 1992, 1993, and 1994, the business owner did not agree to an
installment payment plan or otherwise pay the unemployment taxes of $47,400 that were
owed. However, the Division did not pursue more aggressive collection actions, such as
seeking an injunction against further business activity or referring the case for legal action.

        - Another business had not made any quarterly unemployment tax payments since
September 1993 and owed $590,000. Although the business agreed to an installment
payment plan in 1995, it did not make regular payments against the delinquent amount. The
business owner told us that the Government owed the business for two contracts and that it
therefore did not have funds to pay the delinquent taxes. However, the Division did not
pursue other available collection options, such as offsetting the delinquent taxes against the
amounts that the Government may have owed the business.

The Division’s Acting Chief of Tax told us that the three revenue officers on St. Croix did
not perform collection activities because they had to routinely respond to inquiries from
employers concerning errors in their accounts. The Chief stated, however, that during 1995
and 1997, the one revenue officer on St. Thomas contacted delinquent employers by
telephone. Division officials also stated that the lack of more aggressive collection efforts
was due to the lack of vehicles for site visits by revenue officers. At the July 23, 1998,
meeting to discuss the preliminary draft of this report, the Commissioner of Labor noted that

                                              6
an undetermined portion of the delinquent unemployment insurance taxes of $17.4 million
may be owed by employers who are no longer in business and therefore should be written off
as uncollectible.

We also found that the Division was not effective in pursuing the collection of amounts owed
by government and nonprofit employers who had elected to reimburse the Unemployment
Insurance Program for unemployment benefits paid to their former employees in lieu of
making quarterly unemployment tax payments. Specifically, as of September 30, 1997,
48 government employers owed $936,500 and 32 nonprofit employers owed $23 1,200, for
a total of about $1.1 million. Although Title 24, Section 308(e), of the Virgin Islands Code
requires that nonprofit employers who elect to use the reimbursement method obtain surety
bonds in the event that funds are not available to pay extended unemployment benefits to
former employees, the Division did not ensure that such surety bonds had been obtained. We
found that 5 of 10 employers contacted were not aware that they had outstanding balances.

Assessment of Penalties and Interest

Our review also disclosed that during fiscal years 1996 and 1997, Division employees
backdated the receipts for 28 1 unemployment tax payments in order to prevent the Division’s
computer from automatically assessing penalties and interest on late payments, which
resulted in the loss of penalties and interest totaling $16,400. Although Division policy
states that only the Director and the Chief of Tax are authorized to waive penalties and
interest, Division officials told us that other Division employees were familiar with the
procedures necessary to bypass the computerized assessment of penalties and interest.
However, several employees told us that they were instructed by past and present supervisors
to backdate the contribution payment receipts. We could not verify either explanation
because there was no documentation as to who bypassed the process to automatically assess
penalties and interest. When we told the Division’s Director of the backdating, she
developed a form to be used by the Division to approve and document the waiver of penalties
and interest.

        Use of Staff Resources. We believe that the principal cause of the collection
enforcement deficiencies disclosed by our review was that the Division did not effectively
supervise and use its available staff resources. Specifically, although most of the
employer-related activity and record keeping took place on St. Thomas, the Division’s Tax
Contribution Section had six   staff positions on St. Thomas (a collector, a fiscal assistant,
two data entry operators, and two revenue officers) and six staff positions on St. Croix (the
Acting Chief of Tax, an auditor, three revenue officers, and a computer programmer).
Therefore, in addition to the revenue officers on both islands devoting a significant amount
of time in responding to inquiries from employers instead of conducting collection
enforcement activities, as discussed previously, we found that some of the staff members on
St. Croix were not used appropriately as follows:

       - The computer programmer on St. Croix was assigned as a collector, which we
believe was not an effective use of the employee’s computer programming expertise.
Additionally, the presence of a computer programmer at the St. Thomas office would have

                                              7
allowed the Division to segregate some of the computer-related responsibilities. Instead, the
Division’s Computer Manager on St. Thomas had no support staff and had unrestricted
access to all computer operations.

        - The auditor on St. Croix had completed only two audits of employers during the
past 4 years, although many employers on St. Thomas who had large-dollar delinquencies
had never been audited. Therefore, we believe that the auditor’s expertise could have been
more effectively used on St. Thomas.

Additionally, because the Acting Chief of Tax was located on St. Croix rather than on
St. Thomas, where most of the employer-related activity and record keeping was centered,
he could not provide adequate supervisory oversight over the activities of the Tax
Contribution Section’s staff on St. Thomas. The audit guide “Assessing Internal Controls
in Performance Audits,” issued by the US. General Accounting Office, states that a key
element of an effective system of internal controls is that “qualified and continuous
supervision is to be provided to ensure that internal control objectives are achieved.”
Therefore, we believe that the allocation of the Division’s staff, particularly with regard to
the Tax Contribution Section, should be reviewed and revised to allow for more effective
supervision and use of available staff resources.

Reliability of Computerized Data
The “Fraud Examiners Manual”3 includes a description of the general security controls that
should exist within a computerized system. According to the “Manual,” these controls
include the following: (1) restricting programmers’ access to input data and computer
operations, (2) restricting computer operators’ access to computer programs, (3) ensuring that
only authorized people have access to the computer programs and data files by using
password access restrictions, and (4) establishing emergency procedures for the backup and
restoration of computer programs and critical data files. However, none of these control
features were in place within the Division’s computer operations unit. The Computer
Manager worked alone and performed all administrative, programming, and operating tasks
related to the computer system. Moreover, the Computer Manager told us that he had access
to all employees’ passwords and to the Chief of Security’s main password, which gave him
unlimited access to all of the system’s capabilities and data. Although user passwords should
be changed at least once a year, the Computer Manager used an option within the system to
match passwords to specific screens/functions, which did not allow employees to set their
own passwords. The Computer Manager also told us that after Hurricane Marilyn in
September 1995, he entered information to establish new and update existing claimant
accounts because of the increased number of unemployment claims received after the
hurricane. We believe that all of these factors resulted in a major breakdown of internal
controls over the Division’s computer operations which placed the integrity of all
unemployment insurance tax collection and benefit payment data, including confidential


3The “Fraud Examiners Manual” (second edition), Chapter 1.1600 (“Computer Fraud”), published by the
Association of Certified Fraud Examiners, 1993.

                                                 8
 employer and employee data, at risk. During our audit, we noted discrepancies between
 information in the Division’s computer and in the related hard copy files as follows:

         - The computer file for an employer showed that, as of November 18, 1997, the
employer owed interest of $984. However, because the business’s “start” date was
October 4, 1997, it was unlikely that interest of $984 on unpaid unemployment taxes would
have accumulated in the 6 weeks that the business was in operation. Therefore, we believe
that either the interest due amount or the recorded business start date was incorrect.

         - Similarly, the computer file for another employer showed that, as of
November 18,1997, the employer owed interest of $27,783. However, the business’s “start”
date was June 2,1997, and the employer was current in the payment of unemployment taxes
for the second and third quarters of calendar year 1997. Therefore, we believe that either the
interest due amount or the recorded business start date was incorrect.

         - On June 8,1995, one of the 43 employers discussed previously in this finding had
made overpayments of unemployment taxes and received a refund payment of $27,709 based
on data contained in the Division’s computer system. However, our review of the hard copy
files for this employer indicated that the employer owed delinquent taxes of $74,2 12 for the
same time period and was therefore not entitled to the refund.

        - Another employer’s computer record showed a credit balance of $9,285, which
indicated an overpayment. However, our review of the hard copy files disclosed that the
employer owed delinquent taxes of $77,235. We found that the discrepancy occurred
because of a data input error related to the settlement of an administrative appeal.

Because of the errors cited, we believe that unemployment insurance data on the Division’s
computer is not reliable.

As of February 1998, when our audit fieldwork was completed, Virgin Islands Department
of Labor officials were in the process of finalizing a grant agreement with the U.S.
Department of Labor that would provide $2.9 million for the acquisition and installation of
a new computer system for the Unemployment Insurance Program, which would allow the
Division to improve its operations and also overcome “Year 2000 problems”4 in its computer
system. However, we believe that the staffing and operating procedures of the Division’s
computer operations unit should also be analyzed and revised to provide a reasonable level
of internal control and assurance that the unemployment insurance data are accurate and
reliable.

In a July 21, 1998, memorandum to the Information Technology staff, the newly hired
Assistant Director established interim procedures to (1) restrict computer programmers’


‘The term “Year 2000 problems” is used to describe the potential failure of information technology systems,
applications, and hardware that would make them unreliable because of their inability to correctly interpret
dates after December 3 1, 1999. (That is, many computer systems that use two digits to keep track of the date
will, on January I, 2000, recognize “double zero” not as 2000 but as 1900.)

                                                     9
access to data input and computer operations functions, (2) restrict computer operators’
access to computer programs, (3) ensure that system users had active passwords to restrict
unauthorized access to the system, (4) establish emergency procedures for off-site backup
of important computer files, and (5) maintain an audit history of all computer accesses. At
the July 23, 1998, meeting to discuss a preliminary drti of this report, the Commissioner
stated that the Department had received a portion of the U.S. Department of Labor grant to
upgrade its computer operations and had begun negotiations to acquire a new unemployment
insurance software system from a state whose unemployment insurance program was similar
to that of the Virgin Islands.

Recommendations

We recommend that the Governor of the Virgin Islands direct the Commissioner of Labor
to:

        1. Enforce existing procedures contained in the Unemployment Tax Manual which
require the Division of Unemployment Insurance to issue periodic (such as quarterly)
statements of account to employers that are delinquent in the payment of unemployment
insurance taxes.

        2. Enforce existing procedures contained in the Unemployment Tax Manual which
require the Division of Unemployment Insurance to contact employers that are delinquent
in the filing of quarterly unemployment insurance tax reports or that have overpaid or
underpaid unemployment taxes.

        3. Enforce existing procedures contained in the Unemployment Tax Manual which
require the Division of Unemployment Insurance to follow up with delinquent employers to
ensure that they make arrangements to pay outstanding balances. For those employers who
do not respond to initial collection efforts, other enforcement collection options should be
used. After all available collection options have been made, accounts for employers that are
no longer in operation should be written off as uncollectible.

       4. Establish formal procedures to ensure that waivers of penalties and interest on
delinquent unemployment taxes are made only with the written approval of authorized
Division of Unemployment Insurance officials.

        5. Perform an analysis of the work load and staffing to identify the staffing needs
of the Tax Contribution Section of the Division of Unemployment Insurance and restructure
the Section to achieve better supervision and use of staff resources.

       6. Ensure that Division of Unemployment Insurance officials adequately plan for
the acquisition and installation of the new computer system so that the system will meet the
Division’s long-term data processing needs, provide an adequate level of internal controls
and segregation of duties, and provide accurate and reliable data.



                                            10
Commissioner of Labor Response and Office of Inspector General Reply

The October 8, 1998, response (Appendix 2) to the draft report from the Commissioner of
Labor concurred with the six recommendations and indicated that corrective actions either
had been or would be taken. Based on the response, we consider Recommendations 1,4, and
6 resolved and implemented and Recommendations 2,3, and 5 resolved but not implemented
(see Appendix 3).




                                           11
 B. UNEMPLOYMENT BENEFIT PAYMENTS

The Division of Unemployment Insurance did not (1) ensure that only qualified applicants
received unemployment insurance benefits and (2) adequately safeguard computer and hard
copy files for all individuals who applied for unemployment benefits. Title 24, Sections 304
and 305(d)(2), of the Virgin Islands Code contains the basic eligibility requirements for
unemployment benefit applicants, and Section 3 12 of the Code makes the Commissioner of
Labor responsible for providing regulations for the destruction of agency records. The
Unemployment Benefit Manual contains specific procedures for processing claims.
However, there were insufficient management controls to ensure that these requirements
were complied with by the staff of the Division’s Benefit Claim Section. As a result, 156
claimants received excess benefit payments of more than $152,800, and supporting records
were not available for 183 additional claimants who received benefit payments of about
$400,400.

Processing of Benefit Applications

According to the Unemployment Benefit Manual, each applicant for unemployment benefits
is required to complete an initial claim form and provide the reason for separation from the
last employer. If the reason given on the initial claim form is “lack of work,” the claim is
automatically accepted without being forwarded to one of the Division’s adjudicators.5 If
the applicant does not provide a letter of separation from the last employer, a copy of the
initial claim form must be sent to the last employer for verification of the reason for
separation. Additionally, the last employer is to be notified when benefits are paid to a
former employee.

However, based on our review of a sample of 3 1 applicant tiles, we found that 3 applicants
had received unemployment benefits, although they had listed “lack of work” as the reason
for separation from the last employer and their files did not contain documentation verifying
that the reason for separation had been obtained from their last employer. One applicant had
voluntarily quit his job but received unemployment benefits of $345, which had not been
recovered by the Division at the time of our review. When the employer was notified that
unemployment benefits had been paid to the former employee, the employer contacted the
Division to explain that the employee had voluntarily quit his job.

The Unemployment Benefit Manual also requires that applicants submit a copy of their
Social Security card with their initial claim forms. The Division’s Chief of Benefits told us
that verification of Social Security numbers was given “special attention.” However, we
found that the numbers were not always verified in that our review of the Division’s benefit
payment list disclosed that the Social Security numbers provided by four applicants were not
valid. In one instance, the applicant’s file contained a copy of the individual’s Social


‘According to Department offkials, the function of the adjudicators is to gather additional information and
make an unbiased decision as to a claimant’s eligibility when the reason for separation from the last employer
is an issue in the case.

                                                      12
Security card, but the number on the benefits list and on benefit checks issued to the
individual was different,

The Unemployment Benefit Manual further requires that benefits be reduced or denied if an
individual receives any earnings, earning substitutes, or replacements such as back pay and
pensions. Each new applicant should be interviewed by Benefit Claim Section personnel
to verify information on the initial claim form and to obtain additional information as
necessary about any additional income reported by the applicant, However, based on our
review of 25 files for applicants who had been overpaid, we found that in six instances, the
individuals received additional income that would have made them ineligible for
unemployment benefits. However, this additional income was not identified at the time of
processing of the initial claim For example:

        - An applicant received unemployment benefits of about $4,500 for a 5-month
period during which he also received workman’s compensation benefits. The Division had
not recovered improper payments of about $3,600 at the time of our review.

       - Another applicant received unemployment benefits of about $2,080 for a 2-month
period during which he also received severance and vacation pay. The Division had not
recovered improper payments of about $1,900 at the time of our review.

The Unemployment Benefit Manual further requires an applicant who is certified as eligible
for benefits to perform weekly job searches and submit job search reports as a condition of
continuing to receive weekly benefit payments. The job search reports are to be mailed to
the Division by unemployed individuals and hand carried to the Division by underemployed
individuals. The form used for the job search reports contains the notices “Your job
search[es] are subject to verification” and “It is necessary that you answer the questions on
this form and return it.” However, the Chief of Benefits told us that the job search reports
were not reviewed and/or verified because there was “no one on staff’ to perform such
reviews. Additionally, there was no followup to ensure that all benefit claimants submitted
the job search reports as required. We found that, as a result, applicants continued to receive
unemployment benefits after obtaining full-time employment. For example:

        - A claimant received unemployment benefits of about $2,450 for a 4-month period
during which he was employed on a full-time basis. The entire overpayment amount was
outstanding.

        - Another claimant received unemployment benefits of $3,440 for a 3-month period
during which she was employed on a full-time basis. The individual became unemployed
again, and deductions were being made from her current unemployment benefits to liquidate
the $3,000 balance that was outstanding.

Supervisory Oversight

Based on our review, we believe that the deficiencies cited in the benefit payment process
occurred because of an insufficient level of supervisory oversight of the Benefit Claim

                                              13
Section staff, Specifically, although the Section had five employees on St. Thomas and
nine employees on St. Croix, the Chief of Benefits, who was responsible for supervising the
Benefit Claim Section staff on both islands, was located on St. Thomas. Further, the Benefit
Claim Section’s two claim adjudicators on St. Thomas told us that their recommendations
to approve applicants’ claims for unemployment benefits were not reviewed by a supervisor
before being approved and processed for payment. The Chief of Benefits told us that she did
not review the decisions of one of the claim adjudicators. Of 25 overpayment cases
reviewed, we found that in 8 cases, totaling $14,100, the overpayments resulted from the
subsequent reversal of the decisions made by the claim adjudicators. In these cases, we
believe that supervisory reviews prior to approving the claims could have prevented the
overpayments.

We also believe that the lack of adequate supervisory oversight contributed to the Benefit
Claim Section’s inability to consistently meet the 14-day processing time f&me established
in the Unemployment Insurance Appraisal Manual. In the 1997 Unemployment Insurance
Program and Budget Plan, the former Commissioner of Labor stated that only 4 1.9 percent
of 1996 unemployment benefit cases were resolved within 14 days. Our review disclosed
that only 17 (34.7 percent) of 49 cases processed by the intrastate adjudicator during 1997
were resolved within the established time frame. In the 1997 budget plan, the former
Commissioner of Labor recommended that the vacant position of Local Office Manager on
St. Thomas be filled to give the Chief of Benefits the opportunity to effectively monitor all
office functions on both islands. However, the Chief of Benefits was located on St. Thomas,
and there was no budgeted position for a Local Office Manager on St. Croix to supervise the
staff on that island.

We also found that the lack of segregation of duties in the Benefit Claim Section
compromised the integrity of the entire benefit payment process. Specifically, the Chief of
Benefits was personally involved in key phases of the benefit payment process, including
performing data entry of claimant information and printing, signature stamping, and mailing
benefit payment checks. The U.S. General Accounting Office’s guide “Assessing Internal
Controls in Performance Audits” states that “key duties and responsibilities in authorizing,
processing, recording, and reviewing transactions should be separated among individuals.”

Collection of Benefit Overpayments

Title 24, Section 305(j)(l), of the Virgin Islands Code requires that claimants repay any
overpayments of unemployment benefits within 2 years of the date of final determination of
their case. The Code also provides that no repayment will be required if the overpayment
was not the fault of the claimant. However, our review of the Division’s benefit payment
process disclosed that 156 unemployment benefit claimants (including the specific examples
discussed earlier in this finding) received benefit overpayments totaling $152,800 based on
claims that originated during the period of 1984 to 1997. The overpayments were for
individual amounts that ranged from $61 to $5,590, and 65 of the 156 overpayments
remained outstanding longer than the 2-year limit stated in the Virgin Islands Code. Based
on our review of the case files for a sample of 25 overpayments, we found that 15
overpayments ($2 1,840) resulted from improper claims by the applicants, 8 overpayments

                                             14
($14,190) resulted from errors by the Division, and 2 overpayments ($460) were for reasons
that were undeterminable because of incomplete files. We also found that the Division’s
Benefit Claim Section had not made a reasonable level of effort to contact the claimants and
to arrange for repayment of the overpayments which did not result from errors by the
Division. Specifically, 20 of the 25 claimants had never been contacted, and repayment
agreements were negotiated with only 2 of the 15 claimants whose claims were improper.
In one of those cases, the claimant made only four payments, totaling $200, during the period
of June 1995 to December 1997 and owed about $2,730 at the time of our review. In the
other case, the claimant was unemployed, and deductions were being made from her benefit
payments to liquidate the $3,000 outstanding balance of her overpayment. In
November 1997, two other cases were referred to the Attorney General for legal action,
although the Division had not used all available administrative enforcement actions. Further,
the Division had not written off the eight overpayments, totaling $14,190, that resulted from
errors made by the Division.

Reliability of Computer and Hard Copy Files

We found that significant internal control weaknesses in the Division’s computer operations
compromised the integrity and reliability of data related to the unemployment benefit
payment process (also see Finding A). The Computer Manager had complete and
unrestricted access to all computer operations and passwords, which included the ability to
enter and revise claimants’ data files and the responsibility to print unemployment benefit
checks. In addition, the Division did not have any contingency plans for backing up critical
files.

On July 8, 1997 (the start date of this audit), the records for 1,031 benefit claimants were
deleted from the computer master file. The Computer Manager initially told us that
erroneous dates entered into some of the claimant records by a summer student had caused
the system to fail during the printing of benefit checks, thus resulting in the records that were
processed being deleted. However, the Computer Manager later told us that the problem
occurred because one of the computer’s 10 disks had become warped because of the
excessive heat in the computer room. In a memorandum to the Director of the Division of
Unemployment Insurance, the Computer Manager identified all of the deleted records by
Social Security number and requested that the related hard copy files be used to reenter the
deleted claimant information into the system to rebuild the master file. However, the hard
copy files for 192 St. Thomas claimants could not be located. Benefit payment records
indicate that the 192 claimants had been paid a total of $4 18,700 in unemployment benefits
during the period of July 1995 to June 1997. As of February 1998, the files for 183 of the
192 claimants had not been located. Therefore, there was no support for the benefit
payments of about $400,400 that had been made to these 183 individuals.

As discussed in Finding A, Virgin Islands Department of Labor officials were in the process
of finalizing a grant agreement with the U.S. Department of Labor that would provide
$2.9 million for the acquisition and installation of a new computer system for the
Unemployment Insurance Program. In addition to our recommendation (No. A.6) that the
staffing and operating procedures of the Division’s computer operations unit should be

                                               15
analyzed and revised to provide a reasonable level of internal controls and assurance that
unemployment insurance data are accurate and reliable, we believe that the Department
should establish formal records retention and disposal procedures for computer and hard
copy records related to the Unemployment Insurance Program, including the backup of
critical computer files.

Recommendations
We recommend that the Governor of the Virgin Islands direct the Commissioner of Labor
to:

        1. Enforce existing procedures contained in the Unemployment Benefit Manual
which require the Division of Unemployment Insurance to verifjr claimants Social Security
numbers and statements regarding termination of employment, sources of income, and results
of job searches.

        2. Perform a work load and sting analysis to identify the staffing needs of the
Benefit Claim Section of the Division of Unemployment Insurance and restructure the
Section to achieve better use of staff resources, a greater level of supervisory oversight of
daily operations, and an adequate level of segregation of duties.

        3. Enforce existing procedures contained in the Unemployment Benefit Manual
which require the Division of Unemployment Insurance to take collection enforcement action
to recover overpayments and other improper payments to claimants except for those that
were caused by errors made by Division staff, which should be written off in accordance with
program requirements.

        4. Develop and implement formal records retention and disposal procedures for the
Division of Unemployment Insurance which will ensure that permanent computer and hard
copy records are maintained for all active unemployment insurance taxpayers and benefit
claimants. The records retention and disposal plan should also be in compliance with any
records retention requirements of the Federal Unemployment Tax Act and provide for secure
backup copies of critical computer files.

Commissioner of Labor Response and Office of Inspector General Reply
The October 8, 1998, response (Appendix 2) to the draft report from the Commissioner of
Labor concurred with the four recommendations and indicated that corrective actions would
be taken. Based on the response, we consider Recommendations 1,2,3, and 4 resolved but
not implemented (see Appendix 3).




                                             16
C. ADMINISTRATIVE CONTROLS

The Division of Unemployment Insurance did not maintain an adequate level of
administrative control over the Unemployment Insurance Program’s bank accounts.
Specifically, the Division did not ensure that (1) monthly bank reconciliations were
performed and (2) blank, canceled, and voided checks were properly controlled and secured.
Good business practices dictate that bank accounts be periodically reconciled and that blank,
canceled, and voided checks be properly controlled and secured. The deficiencies occurred
because the Division did not have formal policies and procedures for reconciling bank
accounts and controlling blank, canceled, and voided checks. As a result, discrepancies
existed in the cash balances recorded in the bank statements and the Division’s internal
records for the Unemployment Benefit Account, and 197 canceled checks for benefit
payments could not be located.

Reconciliation of Bank Accounts

The Division had not reconciled the Clearing Account and Unemployment Benefit Accounts
(both checking accounts) in more than 20 years. Although Division personnel verified the
posting of drawdowns from the U.S. Treasury, they did not verify the posting of deposits of
unemployment tax collections, canceled benefit checks, or other bank transactions. Instead,
Division staff maintained an internal register for the Unemployment Benefit Account that
listed all drawdowns as “debits” and all issued benefit checks as “credits.” However, the
balances shown on the internal register did not match the bank statements because the
register did not take into consideration outstanding checks, bank service charges, and other
“in transit” transactions. The Division employee who maintained the internal register said
that the procedures she used were based on supervisory instructions provided to her about
20 years ago. The Division did not have any formal procedures for performing formal
reconciliations between the balances shown on the internal register and on the bank
statements.

In March 1997, the Director of the Division instituted a computerized reconciliation
program for the Division’s bank accounts. However, this program was only a check
reconciliation process because it did not include a reconciliation of deposit information or
of the final monthly account balances. Further, the computerized check reconciliation
program was stopped in April 1997 because of a situation in which 89 unemployment benefit
checks had duplicate check numbers (see the section “Control of Checks”). Although this
problem was subsequently corrected, the check reconciliation program was not reactivated.

We also found that there was inadequate supervisory oversight of the bank account
reconciliation process. For example, the Director told us that she was not aware that formal
reconciliations were not performed between the Division’s internal register and the bank
statements. Further, there was a lack of proper segregation of duties related to the
maintenance of the Division’s bank accounts. Specifically, the same employee who
requested drawdowns from the U.S. Treasury also prepared the internal bank account
registers, prepared monthly reports to the U.S. Department of Labor on the status of the
accounts, stored canceled checks, and had the authority to issue “hand drawn” unemployment

                                             17
benefit checks. We believe that the absence of monthly bank reconciliations, the lack of
internal procedures for the processing of drawdowns from the U.S. Treasury, and the lack
of segregation of duties constituted a serious breakdown in basic internal controls that put
Unemployment Insurance Program funds at the risk of loss or misuse. As noted in
Finding B, the U.S. General Accounting Office’s guide “Assessing Internal Controls in
Performance Audits” states that “key duties and responsibilities in authorizing, processing,
recording, and reviewing transactions should be separated among individuals.”

Control of Checks

The Division did not have formal policies and procedures related to the handling of
unemployment benefit checks. As a result, control over blank, canceled, and voided checks
was inadequate. For example, although the Division used prenumbered blank checks,
computer-generated numbers were also printed on the checks during the check printing
process. During April 1997, the computer-generated numbers on 89 checks were different
from the preprinted numbers. This duplication caused the Division’s automated check
reconciliation program to malfunction (see the section “Reconciliation of Bank Accounts”).
Further, although the bank used the preprinted numbers in its bank statements, the Division
used the computer-generated check numbers in all of its internal record keeping. We also
found that a record was not maintained of the sequence of preprinted numbers on the batches
of blank checks provided to the Division’s Computer Manager for the printing of benefit
checks. Therefore, there was no control over the use of the blank checks. Additionally, the
Division did not maintain a register or otherwise control the issuance of “hand drawn”
checks.

Control over canceled and voided checks was also inadequate. Specifically, we found that
canceled checks were stored in unlocked cabinets which were easily accessible to all of the
Division’s employees and that voided checks were kept in various locations, including
employees’ desks. We performed a numerical trace of all checks issued from the
Unemployment Benefit Account during fiscal year 1996 and were unable to locate
 159 checks among either the canceled or voided checks. This number included 3 1 checks
that were not listed in the internal check register. We also were unable to locate 3 8 checks,
totaling about $7,800, that were issued to benefit claimants in 1997 under the special Disaster
Unemployment Assistance program which was instituted after Hurricane Bertha in July
1997. Also, during our review of the case files for benefit claimants, we found six checks,
totaling about $1,570, that had not been either voided by the Division or mailed to the
claimants.

Recommendations

We recommend that the Governor of the Virgin Islands direct the Commissioner of Labor
to:

        1. Develop and implement formal policies and procedures to ensure that the
Division of Unemployment Insurance reconciles its bank accounts on a monthly basis;
provides an adequate level of supervisory oversight of the bank reconciliation process; and

                                              18
maintains an adequate level of segregation of duties for functions related to the physical
handling, record-keeping, and supervisory oversight of the Division’s resources.

        2. Develop and implement formal policies and procedures to ensure that the
Division of Unemployment Insurance maintains an adequate level of control over blank,
canceled, and voided checks. The procedures should ensure that a record is maintained of
the numerical sequence of blank checks issued to the computer operations unit, the
preprinted check numbers are used for all internal record-keeping functions, a record is
maintained of all voided checks and all “hand drawn” checks, and all voided and canceled
checks are stored in a secure area which is accessible only to authorized Division personnel.
The procedures should also establish controls to ensure that “hand drawn” checks are
properly authorized and supported.

Commissioner of Labor Response and Offke of Inspector General Reply

The October 8, 1998, response (Appendix 2) to the draft report from the Commissioner of
Labor concurred with the two recommendations and indicated that corrective actions would
be taken. Based on the response, we consider Recommendations 1 and 2 resolved but not
implemented (see Appendix 3).




                                            19
                                                                                         APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS

                                                                   Unrealized             Unsupported
                      Finding                                      Revenues*                 costs*

A. Unemployment Tax Collections
      Verification of Employer Payments                              $60,000
      Collection of Delinquent Taxes                              18,500,OOO
      Assessment of Penalties and Interest                             16,400

B. Benefit Payments
      Collection of Benefit Overpayments                              152,800
      Reliability of Computer and
           Hard Copy Files                                                                   $400,400

C. Administrative Controls
     Control of Checks                                                                           7,800

             Totals                                              $18,729,200                 $408.200




*Amounts represent local collections processed through the Unemployment Trust Fund in the Treasury of the
United States in accordance with Sections 903 and 904 of the Social Security Act and the Federal
Unemployment Tax Act.

                                                   20
                                                                                   APPENDIX 2
                                                                                   Page 1 of 7
                          THE VIRGIN ISLANDS OF THE UNITED STATES
                                   DEPARTMENT OF LABOR
                                             #2131 Hospital Street
                                    Christiansted, St. Croix, V.I. 00820460              STX (809) 773-1994
OfficeoftheCommissioncr                                                                  FAX (809) 7734094
                                                                                         s?T: (809) 776-3700
                                                                                         FAX: (809) 7765908




             October 8, 1998




            Mr. Arnold E. van Beverhoudt, Jr.
            Director of insular Area Audits
            Office of the Inspector General
            Federal Building - Room 207
            Charlotte Amalie, Virgin Islands 00802

            Dear Mr. van Beverhoudt:

            Enclosed you will find the response of the Virgin Islands Department of Labor to
            your August 1998 Draft Audit Report V-In-VIS-004.97.

            Sincerely,




     PA’ Commissioner
          armelo Rivera
                       of Labor
                                 [NOTE:ENCLOSURES/ATTACHMENTS NOT INCLUDED BY
            Enclosures (5)        OFFICE OF INSPECTOR GENERAL.]

            xc: Assistant Commissioner Encarnacion
                 Assistant Commissioner Roberts
                 Director of Unemployment Insurance (UI)
                 Director of Information Technology
                 Director of Business Administration
                 Assistant Director of Business Administration
                Assistant UI Director
                internal Security Officer




                                                     21
                                                                       APPENDIX 2
                                                                       Page 2 of 7




    UNEMPLOYMENT TAX
    RECOMMENDATIONS                      .RESPONSE / ACTION TAKEN
Recommend that the Governor of the       This administration found that from
Virgin Islands direct the Commissioner   calendar years 1993-1996 quarterly
of Labor to                              statements to delinquent employers
1. Enforce existing procedures           was not mailed out due to a computer
    contained in the Unemployment Tax    glitch charging incorrect penalties and
    manual which require the Division    interest. The problem was corrected
    of Unemploy- ment Insurance to       and notices are mailed on a quarterly
    issue (such as quarterly)            basis, effective the 1 st quarter of 1997.
    statements of account to employers
   who are delinquent in the payment     In order that the two data entry
    of unemployment taxes.               operators in the Central Office would
                                         have sufficient time to enter quarterly
                                         wage report data for 30,000+
                                         employees, and to ensure the accuracy
                                         of employer account balances, bills
                                         cannot be mailed less than 45 days
                                         after the due dates of the quarterly
                                         reports. Data entry is also responsible
                                         for stuffing and mailing all employer
                                         statements.

                                         A written request was forwarded to the


                                    22
                                                                           APPEnDIX2
                                                                           Page 3 of 7


                                             Division of Personnel to fill the vacant
                                             Chief of Tax Position on St. Thomas.
                                             (See Attachment No. 1) The Director
                                             and the individual in this position is
                                             responsible for directing and enforcing
                                             all the activities of the Tax Unit.



2. Enforce existing procedures               The addition to the Tax staff of one
   contained in the Unemployment Tax         revenue officer on St. Thomas has
   Manual which require the Division         resulted in a decrease in the number of
   of Unemployment Insurance to              delinquent employers from 850 on
   contact employers who are                 January 1997 to 509 in January 1998,
   delinquent in the filing of quarterly     a decrease of 7.3%.
   unemployment insurance tax
   reports or who have overpaid or           The Department’s collection efforts was
   underpaid unemployment taxes.             set back due to the breakdown of
                                             vehicles or revenue officers. The
                                             Department expects to procure two
                                             new vehicles for revenue officers on St.
                                             Jhomas to do follow-up and for
                                             collection purposes, not later than the
                                             end of the second quarter of fiscal year
                                             1999.

                                             The Director will enforce existing
                                             orocedures and the Chief of Tax is
                                             -esponsible for directing the activities of
                                             :he Tax Unit.
3. Enforce existing procedures               The Director will enforce existing
   contained in the Unemployment Tax         Drocedures and the Chief of Tax is
   Manual which require the Division         .esponsible for directing the activities of
   of Unemployment Insurance to              :he Tax Unit.
   follow up with delinquent employers       The Department’s collection efforts was
   to ensure that they make                  :urtailed due o the breakdown of
   arrangements to pay outstanding           vehicles or revenue officers.
   balances. For those employers
   who do not respond to initial             The Department expects to procure
   collection efforts, other enforcement     wo new vehicles for revenue officers
   collection options should be used.        In St. Thomas to do follow-up and for
   After all available collection options    :ollection purposes, not later than the
   have been exhausted, accounts for         znd of the second quarter of fiscal year
   employers who are no longer in            1999.
   operation should be written off as
   uncollectible.                            Collection of delinquent employer



                                        23
                                                                      APPENDIX 2
                                                                      Page 4 of 7


                                          contributions will be conducted in
                                          accordance with the procedures
                                          outlined in Section 309, Chapter 12,
                                          Title 24, VI Code, and the VI Tax
                                         Manual.
4. Establish formal procedures to        On October 2, 1997 the UI Director
   ensure that waivers of penalties and amended Rules and Regulations and
   interest on delinquent unemploy-       official form was adopted which
   ment taxes are made only with the      requires the reason for the waiver and
   written approval of authorized         approval of the Director before waiver
   Division of Unemployment               of interest and/or penalties is deleted
   Insurance officials.                  from the employer account. (See
                                         Attachments No. 2 & 3) The new
                                         regulations also requested that any
                                         account adjustments or refund of
                                         contributions will be handled by the
                                          Fiscal Assistant only, with written
                                         approval signature of Director or Chief
                                         of Tax (See Attachment No. 4)
5. Perform an analysis of the workload The Director of Unemployment
   and staffing to identify the staffing Insurance is directed to conduct
   needs of the Tax Contribution         staffing analysis and workload of Tax
   Section of the Division of            staff and confer with the Director of
   Unemployment Insurance and            Personnel Services and Chief of Tax
   restructure the Section to achieve    regarding reorganization and
   better supervision and use of staff   restructuring of human resources for a
   resources.                            more efficient and effective operation.




L
                                       1Analysis is due from Director not later
                                        than March 31,1999.
6. Ensure that Division of Unemploy-    The Department of Labor received a
   ment Insurance officials adequately grant from US Department of Labor to
   plan for the acquisition and         acquire a new UI computer system.
   installation of the new computer     The Department is negotiating with the
   system so that the system will meet Employment Security Commission of
   the Division’s long-term data        North Carolina for importation of their
   processing needs, provide an         system for the Virgin Islands, with
   adequate level of internal controls  modifications. The new system, when
   and segregation of duties, and       acquired, will have all internal controls
   provide accurate and reliable data.  in place.

                                         On June 22,1998 the Department
                                         acquired and installed an IBM AS400
                                         to replace the 20 year old UI System
                                         36.
                                                                         APPENDIX 2
                                                                         Page 5 of 7

                                            The functions of computer operations
                                            are segregated with the recent
                                            appointment of Director and an
                                            Assistant Director for Information
                                            Technology Unit. In addition, cross-
                                            training of computer operations
                                            manager and the programmer on UI
                                            functions have already taken place.
BENEFIT PAYMENTS
RECOMMENDATIONS
                                            The Commissioner of Labor has
1. Enforce existing procedures              directed the Director of the Division of
    contained in the Unemployment           Unemployment Insurance to ensure
    Benefit Manual which require the        that established Rules and Regulations
    Division of Unemployment                are adhered to. The Assistant Director
    Insurance to verify claimants’ Social   for Benefit Claims Administration has
    Security numbers and statements         been directed to revise and amend the
    regarding termination of employ-        Benefit Claims Administration Manual
    ment, sources of income, and            not later than April 1, 1999. The
    results of job searches.                manual will be a valuable tool to all
                                            local office associates for proper
                                            procedures for claims processing.
2 Perform a workload and staffing           The Director of Unemployment
   analysis to identify the staffing        Insurance is directed to conduct
   needs of the Benefit Claim Section       staffing analysis and workload of
   of the Division of Unemployment          benefit claims offices and confer with
   Insurance and restructure the            the Personnel Administrator and
   Section to achieve better use of         Assistant UI Director regarding
   staff resources, a greater level of      reorganization of human resources for
   supervisory oversight of daily           a more effective and efficient operation.
   operations, and an adequate level
   of segregation of duties.                The analysis and recommendations will
                                            be completed by the Director of
                                            Unemployment Insurance and
                                            forwarded to the Commissioner of
                                            Labor, not later than March 31, 1999.
3. Enforce existing procedures              The Commissioner of Labor has
   contained in the Unemployment            directed the Director of the Division of
   Benefit Manual which require the         Unemployment Insurance to prepare a
   Division of Unemployment                 Benefit Payment Control Technical
   Insurance to take collection             4ssistance Guide, not later than the
   enforcement action to recover            2nd of December 31, 1998, for use by
   overpayments and other improper          3enefit payment control unit staff who
   payments to claimants except for         are responsible for promoting and
   those that were caused by errors         maintaining integrity of the program
   committed by the Division, which         :hrough prevention, detection, recovery


                                      25
                                                                             APPENDIX 2
                                                                             Page 6 of 7


   should be written off in accordance        and prosecution of fraud and abuse.
   with program requirements.                 The focus of the unit will be on
                                              preventing overpayments from
                                              occurring in the first place, rather than
                                              detecting overpayments after they have
                                              occurred. Staff will be trained in
                                              investigation and recovery techniques
                                              to collect benefits overpaid.
4. Develop and implement formal               The Commissioner of Labor directs the
   records retention and disposal             Director of Unemployment Insurance to
   procedures for the Division of             confer with Internal Security to
   Unemployment Insurance which will          implement records retention procedure
   ensure that permanent computer             in accordance with Federal guidelines.
   and hard copy records are                  The federal guidelines will be followed
   maintained for all active                  until local procedures are implemented.
   unemployment insurance taxpayers
   and benefit claimants. The records         The UI computer mainframe is backed
   retention and disposal plan should         up weekly and diskette sent to off-site
   also be in compliance with any             location. The Director of
   records retention requirements of          Unemployment Insurance will confer
   the Federal Unemployment Tax Act           with the Director of Information
   and provide for secure backup              Technology (IT) is directed by the
   copies of critical computer files.         Commissioner to submit formal written
                                              policies and procedures regarding
                                              secured backup of all computer files by
          .
                                              December 31, 1998. The Director of UI
                                              IS responsible for the information from
                                              IT by the due date.
ADMINISTRATIVE CONTROLS
RECOMMEN.~.ATIQIS    -:;&. ,.? (_             RESPONSE / ACTlaiN TAKEN
1. Develop and implement formal               The Commissioner of Labor has
   policies and procedures to ensure          directed the Director of Unemployment
   that the Division of Unemployment          Insurance to confer with the Director of
   Insurance reconciles its bank              3usiness Administration and Finance
   accounts on a monthly basis;               To review existing accounting
   provides an adequate level of              Drocedures for Ul bank account
   supervisory oversight of the bank          *econciliation. The Director of UI will
   reconciliation process; and                submit formal written procedures, not
   maintains an adequate level of             ater than January 31,1999. The
   segregation of duties for functions        lrocedures should include, but is not
   related to the physical handling,          imited to, oversight authority
   record keeping, and supervisory            designation of individual responsible for
   oversight of the Division’s                JI record-keeping functions.
   resources.
2. Develop and implement formal               The Commissioner of Labor has
   polices and procedures to ensure           directed the Director of the Division of


                                         26
                                                                       APPENDIX 2
                                                                       Page 7 of 7

 that the Division of Unemployment      Unemployment Insurance to confer
 Insurance maintains an adequate        with the Internal Security Officer to
 level of control over blank,           implement formal “written” policies and
 canceled, and voided checks. The       procedures to be implemented not later
 procedures should ensure that a        than December 31, 1998. The Director
 record is maintained of the            will produce the written policy to
 numerical sequence of blank            adequately control the check
checks issued to the computer           processing and storage of blank
operations unit, the preprinted         checks, hand-drawn checks, and
check numbers are used for all          ensure that the preprinted check
internal record-keeping functions, a    number is used for all recordkeeping.
record is maintained of all voided
checks and all “hand drawn”             Division personnel continue their
checks, and all voided and              search for the claimants files in
canceled checks are stored in a         question. Our research indicated that
secure area which is accessible         the majority of these files were all
only to authorized Division             disaster assistance records that were
personnel. The procedures should        kept separate from regular benefit files.
also establish controls to ensure
that “hand drawn” checks are            The Administrator of Plants & Facilities
properly authorized and supported.      will identify off property storage area for
                                        UI records by December 31, 1998.




                                   27
                                                                            APPENDIX 3


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference             Status                     Action Reauired

   A. 1, A.4, and A.6     Implemented.     No further action is required.

   A.2, A.3, and A.5      Resolved; not    The recommendations will be referred to
                          implemented.     the Assistant Secretary for Policy,
                                           Management and Budget for tracking of
                                           implementation. However, when
                                           corrective actions have been completed,
                                           appropriate supporting documentation
                                           should be provided to our off&.

 B.l, B.2, B.3, and B.4   Resolved; not    The recommendations will be referred to
                          implemented.     the Assistant Secretary for Policy,
                                           Management and Budget for tracking of
                                           implementation. However, when
                                           corrective actions have been completed,
                                           appropriate supporting documentation
                                           should be provided to our offke.

     C.l and C.2          Resolved; not    The recommendations will be referred to
                          implemented.     the Assistant Secretary for Policy,
                                           Management and Budget for tracking of
                                           implementation. However, when
                                           corrective actions have been completed,
                                           appropriate supporting documentation
                                           should be provided to our offke.




                                      28
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                       (703) 235-9221
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (671) 647-6060
Offke of Inspector General
North Pacific Region
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

lTS/Commerciai Numbers:
  (202) 208-5300
  -lDD (202) 208-2320

 HOTLm
1849 C Street, N.W.
Mail Stop 5341
Washington. D.C. 20240




        i
        .
        .
         .
        :
       =
